         HOSPITAL ACQUISITION OF

      COMPUTER SOFTWARE PROGRAMS

      UNDER THE PROSPECTIVE PAYMENT

                 SYSTEM

                         EFFECT ON CASE MIX INDEX




       t.' VICIS. ClJ'




 '0



      /t"la

OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS

                                                    JANUARY 1990
    HOSPITAL ACQUISITION OF

 COMPUTER SOFTWARE PROGRAMS

    UNDER THE PROSPECTIVE

                 PAYMENT SYSTEM

                 EFFECT ON CASE MIX INDEX




                      Richard P. Kusserow
                      INSPECTOR GENERAL




OAI- 02-801310                              JANUARY 1990
                               EXECUTIVE SUMMARY


PURPOSE

This inspection assesses the possible impact of computer software used in medical records
deparents on Medcare reimbursement

BACKGROUND

With the advent of the Prospective Payment System (PPS), hospitals began using computer
softwar program to improve the accuracy of their codg of medcal records and to
anticipate the amount of reimburement they would receive. Two tyes of software ar being
used: the fist, caled encoders, assists hospita sta in translating medical record
documentation into International Classifcation of Diseases - 9th Revision - Clinical
Modfication (ICD- CM) diagnosis and procedur codes; the second, caled groupers, makes
diagnosis-related group (DRG) assignments based on these codes. The softwar packages
may contan a feature, caled an optizer, which presents compartive analyses of DRGs and
may also resequence codes independent of the rules of codng.

Hospitals submit these ICD- CM codes to their Medcare fiscal intennediares who convert
them into the appropriate DRG for payment. Each DRG is assigned a numerical weight
reflectig the relative costliness of providing care. To provide a compartive measure of the
aggregate mi of patient DRGs among hospitals, a hospital-specifc case mix index (CMI) is
computed. The CMI is the weighted average ofDRGs for that hospita' s Medicare discharges.

The Prospective Payment Assessment Commssion (PoPAC), a congressionally-established
group responsible for evaluating PPS, expects case mi indices to increase over time due to
changes in medical practice and in the inpatient population. However, PPS is not intended to
pay for higher-weighted DRGs resulting from improvements in coding practices. In its June
1989 report to Congress, ProPAC estiates the cumulative increase in the per-case payment
rates for the fIrst six year of PPS was 42. 6 percent.

ProPAC' s 1986 infonnal survey, which measured the extent of medical record coding changes
and the impact of encoder and grouper software on codg, concluded that codg practices
are changing in response to PPS incentives. However, no quantifcation could be made of the
extent of coding change nor the amount of case mi change attrbutable to changes in coding
practices.

Under contract to the Offce of Inspector General, the American Medical Record Association
convened a conference in June 1988 of admnistrators of medical record deparents on the
proper use of softwar as well as possible abuses. The conferees ' major rmding was the belief
that misuse of optimizers, that is, maximization , was rae.
METHODOLOGY

A strtifIed, two-stage, random sample of 250 hospitals was sureyed for infonnation about
grouper and encoder softwar acquisitions between Januar 1982 and June 1988. Data were
analyzed to determe whether any relationship exists between acquisition of a grouper or
encoder and changes in a hospital' s CMI durng the months following acquisition.

FINDING

Software Did Not Affect Case Mix Index

This analysis of software acquisition and Medicare case mix index data found that the
presence of a grouper, an encoder, or both, did not have an independent effect on a hospita'
CM!. This leads to the conclusion that the observed increases in CM! since the inception of
PPS cannot be attbuted to the acquisition of software by hospitals.


This rmding supports the views and experiences of the admnistrtors of medical record
deparents expressed at the American Medical Record Association conference discussed
earlier.
                 ..... .... .... .... ... ..... .............
                                                     ......        ...... ...........................
                                                                               .....................
                                                  .............................................
                                                            .................
                                                         .........
                                                              .... ...........    ....................
                                                                                ..........               .............
                                                                                                      ....  .......
                                                                                                      ........
                                                                                           ...... ......                ......
                                                                                                               ............
                                                                                                        ....................
                                                                                                          ....               ........
                                                                                                                    ... ...... ...
                                                                                                                                ...............
                                                                                                                                            .... ....
                                                                                                                                 ... ..........  ..............
                                                                                                                                                         ...




                                                      TABLE OF CONTENTS


EXECUTIVE SUMMARY


 NTRO D UCTIO               N ... .... ......

                PU RPOS           E....... .....                                                                                    .......... ..... ....1




                BACKG RO              UND                                                                        ...... ........... ............ ........ 1

                SCOPE AND METHODOLOGY                                          ................................................................. 3

FI N DI NG 





APP EN DI 
      X A. ... .... .... ......... .... ... ....... ..... .....                                                                      ....... A - 1


                American Medical Record Association Conference Report
                                     INTRODUCTION



PURPOSE
The purose of this inspection is to assess the possible impact of computer software used in
medical records deparents on Medcar reimburement.


BACKGROUND

Hospita are reimbursed under the Prospective Payment System (PPS) based on the
diagnosis-related group (DRG) into which a patient s medical condition is classifed, with
payment varg widely among 477 DRG classifcation categories. The PPS, admnistered by
the Health Care Financing Admnistrtion (HCFA), results in payments to hospitals of more
than $30 bilion a year.

Pror to PPS, hospitas had   little fIancial incentive to review medical records and code
descrptive biling infonnation accurtely or completely. Translation of medical record
descriptions of diagnoses and medical procedures into numeric codes was done priary for
statistical puroses unrelated to reimburement. Under PPS, hospitals now have rmancial
incentives to more exhaustively abstract medical record data.

DRG assignment is guided by the identification and codg of the pricipal diagnosis and up
to four secondar diagnoses indicating medical complications and comorbidities. Additionally,
up to thre procedures can be identifIed and sequenced based upon established rules of
codng. Hospitals submit these International ClassifIcation of Diseases - 9th Revision ­
Clinical ModfIcation (ICD- CM) codes to their Medicare fiscal intennediares who convert
them into a DRG for payment. In practice, however, most hospitas also independently
identiy the DRG.

Although such codng and sequencing can be done manually, hospitas have increasingly gone
to computerization of the DRG assignment process. Numerous consulting organizations,
accounting fIrms and computer companies have developed two main tyes of softwar: the
fIrst, called encoders, assists hospita staf in translating medical record documentation into
ICD diagnosis and procedure codes; the second, called groupers, makes DRG assignments
based on these codes.

Competition among vendors has produced a wide aray of DRG software packages. The DRG
modules may be independent systems or may operate as par of a hospital-wide infonnation
management system. They may contan featurs to track admssion , intennediate, and final
DRGs; to assist in quality assurance and utilzation review functions; and to collect case mix
data. Another feature, called an optimizer, queries the user for the presence of other diagnoses
or procedurs, which could lead to a higher-weighted DRG. This prompts the user to explore
patients ' char for the presence of additional evidence or to seek clarfIcation from physicians.
Optimizers may also resequence diagnoses and proedure codes independent of the rules of
codng and produce alternative DRGs. They may thus be used to produce either a more
accurate DRG or a DRG which inappropriately maimizes reimbursement.

The Case Mix Index 
   - Each DRG is assigned a numerical weight reflecting relative hospital
use of resoures and thus the costliness of providing care. To indicate the compartive
intensity of the aggregate mi of patient DRGs in a given hospita, HCFA computes a
hospita-specific case mi index (CMI, which is the weighted average of DRGs for a
hospital' s Medicare discharges. Increases in the CM!, or higher compartive CMIs among
hospitals, indicate higher average payments per discharged patient.

The Prospective Payment Assessment Commission 
     - The Prospective Payment Assessment
Commssion (ProPAC) is a congrssionally- established group responsible for monitoring and
evaluatig PPS and makng recommendations to the Secrta and Congrss on ways to
improve it. ProPAC expects case mix indices to increase over time due to changes in medical
practice and the changing charcteristics of the inpatient population. These changes should be
priary due to practice trnds such as (1) new and more costly technology causing cases to
move to higher- weighted DRGs; and (2) PPS- induced movement of patients to outpatient
care (reimbured on the basis of reasonable cost) for potentially less-complex, low-weighted
DRG cases. These constitute legitimate or " real case mix change. " The PPS is intended to
include compensation for this incrased use of hospita resources on more complicated cases.
Other factors influencing the case mix index ar observed improvements in medical record
documentation by physicians and changes in codng practices of medical record deparment
staffs. However, PPS is not intended to pay for higher-weighted DRGs resulting from
improvements in codg practices, since such improvements do not reflect increases in
resoures used in trating patients.

The ProPAC June 1989 report to Congress estimates the cumulative increase in per-case
payment rates for the fIrst six year of PPS was 42. 6 percent. This incrase (since 1983)
attrbutable to PPS payment policy decisions and to the assignment of patient discharges over
these year to higher- weighted DRGs. Changes to higher-weighted DRGs account for 28.4
percent of the incrase, or twice as much as the 14. 2 percent increase (simulated) due to policy
decisions. An example of the latter was the trsition frm a combination of hospital-specifIc
and national rates to entirely national average rates.

The Commission has continuously addressed CM! increases in its studies and
recommendations on maintaining and updating PPS. Each year it has acknowledged a lack of
 dermitiveness " in its estimates of real case mix change and of PPS coding- induced case mix
change. Its 1986 infonnal surey, which measurd the extent of medical record coding
changes and the impact of encoder and gruper softwar on codng, concluded that coding
practices ar changing in response to PPS incentives. However, no quantification could be
made of the extent of codg change nor the amunt of case mix change attrbutable to
changes in codng practices.

The American Medical Record Association 
                 - Under contrct to the Offce of Inspector
General, the American Medcal Record Association (AMRA) convened a conference in June
1988 of admnistrtors of medcal record deparents on the proper use of softwar as well as
on possible abuses. The conferes ' major rmdig was: " the belief that misuse of optimizers,
that is, maximization , was                 ra
                                in practice; where mamition appears to have taen place,
the cause most often is lack of knowledge or understadig of codng conventions and
priciples resultig in inaccurate codng. " They reommended that to eliminate
maximization, codg accurcy must be strssed. And, while they believe many safeguards
are in place which contrbute to accurcy, they identified severa studies which can furher
enhance codg accurcy.

The executive summar of AMR' s conference report appear as the Appendix.


SCOPE AND METHODOLOGY

A radom sample of 257 hospitals (stratified by bed size of less than 100 beds, 100- 299               beds
and 300 or more beds) was selected Each hospita was reuested to provide infonnation
about grouper and encoder software acquisitions between Januar 1982 and June 1988. All
hospitals, except seven which had closed, provided infonnation on dates of purhase or lease,
the name of vendors and the tyes of softwar packages obtaed.

The data from these 250 hospitas were analyze to determne whether any relationship
existed between acquisition of a gruper or encoder and changes in a hospita' s CM!. For
each hospita included in the sample, a monthly CM! was calculated based on all PPS
discharges recorded on fies                  maitaed by HCFA as of September 30, 1988. Independent
cofactors were developed that classifed each hospita as to its geographic status (urban vs.
ru), teaching status (teaching vs. non-teaching), and be size. Along with these thee
cofactors, the tota number of cases contrbutig to the constrction of the CMI was included
in atie series analysis. This time series analysis took the form of a regression model where
the errr term is an autoregrssive process. That is, the value of the CM! for any month may
be explained by the severa independent cofactors as well as values of the CMI imedately
precedg the curnt value. A full model was constrcted which included al of the possible
interaction tenns among the independent varables. The result of such an analysis is to
estimate coefficients for each cofactor, and any interaction terms crated frm the cofactors, in
an equation , and then to test whether these coeffcients differ signifIcantly from zero.
                                          FINDING


Software Did Not Affect Case Mix Index


This analysis of softare acquisition and Medcare case mi index data found that the
presence of a grouper, an encoder, or both, did not have an independent effect on a hospita'
CMI. The coeffcients for the presence of a grouper, an encoder, or both, did not differ
significantly from zero. We would conclude frm this analysis that we ar not able, with this
data, to distinguish an increase in a hospita' s CMI due to the acquisition of this software.

This rmding supports the views and experiences of the adnistrtors of    medical record
deparents expressed at the AMRA conference discussed earlier.



     NOTE:       Copies of the time series analysis and accompanying tables, as well
                 as copies of the full AMR conference report, ar avaiable on
                 request frm:
                              Offce Of Inspector General
                              Health Car Brach
                              Room G- I0- C East High Rise
                              6325 Securty Blvd
                              Baltimore, MD 21207
                                       APPENDIX A


     AMERICAN MEDICAL RECORD ASSOCIATION CONFERENCE REPORT


        The Issues of DRG Optimization from a Coding/DRG Grouping Perspective


EXECUTIVE SUMMARY

Purpose

One of the issues in evaluatig the effectiveness and integrty of the Prospective Payment
System (PPS) is DRG optimization and potential for maximization. The Offce of Inspector
GeneraVOmce of Analysis and Inspections requested that a Conference of American Medical
Record Association (AM) members be convened to provide expert opinion on the proper
use of aids available to manipulate infonnation in medical records for DRG assignments.


Background

The PPS was madated by Congress effective October 1, 1983. Under this system , hospitals
are reimbursed, for inpatient services provided each Medicare patient, a specifIed payment
based upon the case s classifcation into a diagnosis-related group (DRG). The DRGs are
assigned from infonnation submitted on hospital clais. Inonnation required for DRG
assignment includes the ICD- CM codes for the pricipal diagnosis and procedur sequenced
fIrst; complications, comorbidities, and other procedures; and the age and sex of the patient.
Assignment of the appropriate DRG for the case requires complete identication and accurate
codng of diagnostic and procedural statements from the medical record and the correct
abstracting of other patient data.

Codng is the translation of verbal descrptions of diseases, injures, and procedures into
numerical descrptions. The ICD- CM classification system curently requird for coding for
DRG assignment was designed for the purose of reportng morbidity and mortality
infonnation for statistical purposes, and for indexing of hospita records by disease and
operations for data storage and retreval. As such ,   codng supports clinical research and many
other health data needs. The codng system, however, was not designed as a classifIcation
system for reimbursement. Thus, such use must be made with the full understanding that the
nature of codng is reflective of the nature of medicine itself-it is not an exact science. There
are specific conventions and principles governing codng, yet accurte codg is dependent
upon a multitude of factors which are descrbed in this report.
The natur of the codng process and its use in reimburement have resulted in the
development of codng aids. Among these ar softwar aids:

     Encoders ar   computerized   aids to code assignment.

     Editors are computer programs which check for logical errors in data abstracted from the
     medical record and code assignments.



     Groupers ar   software which   aids in branching thugh the DRG decision tres   to assign
     aDRG.

     Optimizers, which interface with encoders and grupers, are aids to selectig the optimal
     DRG.


Aids ar not limted to softwar, however, for code books, newsletters, coding hotlines, and
codng consultants ar other ways hospitals are receiving offcial and unoffcial coding
guidance.


Findings

The AMRA members parcipating in the Conference found it necessar to begi by defIning
tenns associated with codng and DRG assignment. Parcipants next tured their attention to
studies on the extent of use of computer- aided codng, DRG assignment, and optimization.
Only very limited infonnation is avaiable, and is summarzed within the report. The major
finding of the conferees was the belief that misuse of optimizers, that is, maximization , was
rar in practice; where maxmization appears to have taen place , the cause most often is lack
of knowledge and understading of codg conventions and principles resulting in inaccurate
codng. The most importt safeguard for preventing maximization or the appearance thereof
then , is to ensur coding accuracy though adequate trning of coders, quality controls and
other measures.

Severa measures curently in place contrbute to codng accuracy. These include the Joint
Commission on Accrditation    of Healthcar Organizations ' Agenda for Change,
improvements in physician documentation as a result of the need for more accurate coding,
AMRA's Code of Ethics and Professional Prctice Standards, educational progrms in coding,
cooperation between significant pares to resolve codng issues, management system features
for some encoder products, system security, and individual hospital medical record committee
review of documentation.

Severa research studies which would furher enhance    codg accurcy    ar proposed   in this
report. These include analysis of hospital, PRO, and SuperPRO disputed codes, development
of standardized methodologies and competencies for studies of codng accuracy, evaluation of



                                             A - 2

all codng and grouping aids, monitoring of the effectiveness of crsswals between
classification systems, and the more timely issuance of new codes and codng guidelines.


Recommendations

The recommendations resultig  for the Conference focused on measures that could be taken to
enhance understanding of the codg proess and codng accuracy. The specific
recommendations include:



             Utilize appropriate termnology in communications concerning codng and DRG
             grouping.

             Recognize the value of groupers, encoders, edtors, and optimizers as aids to
             codng and DRG gruping which wil enhance codng accuracy, and         thereby
             ensur fai reimbursement   for hospitals and appropriate expenditures for the
             Medicare progr

             Continue efforts to eliminate fraud and abuse in the Medicare program by
             continually monitoring for maximization by any means, including misuse of
             optimizers.

             Recognize the safeguards curently in existence which contrbute to the
             enhancement of codg accuracy.

             Conduct studies to enhance codng accuracy, as discussed in the fIndings.

             Institute cOlTective actions to ensure codng accuracy.




                                             A - 3

